OIG Audit Report GR-70-07-002

Use of Equitable Sharing Assets by the Norwalk, Connecticut Police Department

Audit Report GR-70-07-002


February 2007
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the Norwalk, Connecticut, Police Department ( Norwalk). Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1 Between July 1, 2004, and June 30, 2006, Norwalk received DOJ equitable sharing funds totaling $731,806 and spent $275,534 of these funds during the same period. Norwalk also received property valued at $14,495. Norwalk properly accounted for the equitable sharing funds and property received and used in support of its law enforcement operations.
 We reviewed Norwalk’s compliance with seven essential equitable sharing guidelines and found that Norwalk generally complied with the guidelines. However, Norwalk did not: 

 submit a new Federal Sharing Agreement after a change in the local government administration, or 
 establish procedures to track and reconcile requests for and receipts of equitable sharing funds and property. 

 Our audit results are discussed in greater detail in the Findings and Recommendations section of the report. The audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with Norwalk officials and have included their comments as applicable. In addition, we requested a written response to a draft of our audit report from the DOJ Criminal Division and Norwalk. In its response, Norwalk agreed with our findings and provided documentation demonstrating the implementation of the recommendations made within our report. The Criminal Division had no comments on the report. Norwalk’s comments are included in the report as Appendix II, and our analysis of Norwalk’s comments and closure of the report are contained in Appendix III. 2 



Footnotes

The Comprehensive Crime Control Act of 1984 granted the U.S. Attorney General the authority to share federally forfeited assets with cooperating law enforcement agencies. The purpose of DOJ’s Forfeiture Program is to deter crime by depriving criminal the profits and proceeds of illegal activities, and enhance cooperation among federal, state, and local law enforcement agencies. 
 Norwalk’s response to our draft report included documentation supporting the implementation of actions taken in response to our report. We did not include this documentation in our final report.